Inspection Report - I-99-09
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
Inspections Division
Voluntary Departure:
Ineffective Enforcement and
Lack of Sufficient Controls
Hamper the Process
Report Number
I-99-09
March 1999
TABLE OF CONTENTS
INTRODUCTION
RESULTS OF THE INSPECTION
CRIMINAL HISTORY AND ELIGIBILITY CHECKS
Prevalence of Criminal History
Checks
Convicted Criminals
Other Eligibility Requirements
DEPARTURE VERIFICATION IN
PROCEEDINGS
Illegal Aliens Appear Not to Leave
Lack of an Effective Verification
System
ENFORCEMENT OF VOLUNTARY
DEPARTURE ORDERS
Ineffective Enforcement
Voluntary Departure Bonds
Attachment of Other Conditions
TRACKING GRANTS OF VOLUNTARY
DEPARTURE
Deportable Alien Control System
Paper Transportation Logs
RECOMMENDATIONS
APPENDIX A: THE EOIR REMOVAL
PROCEEDINGS PROCESS
APPENDIX B: THE INS VOLUNTARY
DEPARTURE PROCESS
APPENDIX C: METHODOLOGY
APPENDIX D: THE INS
DEFINITIONS OF AGGRAVATED FELONY
APPENDIX E: EXECUTIVE OFFICE
FOR IMMIGRATION REVIEW RESPONSE TO DRAFT REPORT
APPENDIX F: OFFICE OF THE
INSPECTOR GENERAL'S ANALYSIS OF
MANAGEMENT'S RESPONSE
* * * * *
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
KEVIN D. ROONEY
DIRECTOR
EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Voluntary Departure: Ineffective Enforcement and Lack of
Sufficient Controls Hamper the Process, Report Number I-99-09
In our continuing effort to address illegal immigration issues, the Office of the
Inspector General (OIG), Inspections Division, assessed how Immigration and Naturalization
Service (INS) district officers and Executive Office for Immigration Review (EOIR)
immigration judges implement voluntary departure. Voluntary departure is a process by
which an illegal alien agrees to leave the United States voluntarily, thus avoiding the
penalties and stigma of removal. Voluntary departure is an alternative to a formal order
of removal for eligible illegal aliens to leave the country through a streamlined and
quicker process while potentially saving the U.S. Government detention and removal costs.
Our report findings demonstrate weaknesses in conducting criminal history checks,
tracking alien departures, and overall enforcement of voluntary departure orders. A
discussion of our most significant findings and recommendations follows.
Criminal History Checks
The Illegal Immigration Reform and Immigrant Responsibility Act of 1996 prohibits
aggravated felons from receiving voluntary departure. INS relies on either the Federal
Bureau of Investigations National Crime Information Center (NCIC) system or
fingerprint criminal history checks to ensure that no aggravated felons are granted
voluntary departure. EOIR immigration judges currently do not require criminal history
checks to determine if the alien is an aggravated felon and thus is ineligible for
voluntary departure.
We found that adequate criminal history checks identifying aggravated felons are not
performed on all illegal aliens granted voluntary departure. INS district officers perform
few, if any, criminal checks prior to granting voluntary departure to apprehended aliens.
Immigration judges frequently issue decisions without completed checks. As a result, INS
district officers and immigration judges inappropriately grant voluntary departure to some
aggravated felons.
To ensure that no aggravated felons receive voluntary departure, we recommend that INS
district officers perform NCIC criminal history checks before granting voluntary departure
or placing aliens into removal proceedings. We further recommend that the INS trial
attorneys introduce the results of checks into evidence at proceedings and recommend a
regulatory change so that immigration judges do not grant voluntary departure without the
checks.
Tracking
INS cannot verify that aliens ordered to leave the United States do so. To be
effective, voluntary departure should have a sound departure verification and tracking
system. INSs lack of knowledge about whether illegal aliens leave the country
precludes INS from determining whether voluntary departure provides a more streamlined,
quicker process than formal removal that saves the U.S. Government detention and removal
costs.
To address this problem, we recommend that INS implement an effective departure
verification system for immigration judge-granted voluntary departures and a system for
identifying and tracking each alien granted voluntary departure by INS district officers.
INSs lack of effective departure verification systems is more widespread than is
presented in this report regarding voluntary departures. INS also has problems tracking
nonimmigrants who overstay their visas. In a September 1997 OIG report, Inspection of
INS Monitoring of Nonimmigrant Overstays, we recommended improving departure
verification records for nonimmigrants and ensuring complete and reliable data to support
enforcement efforts.
Enforcement
Lack of a tracking system also negatively affects INSs ability to enforce
voluntary departure orders. INS enforcement of voluntary departure orders is minimal. INS
does not seek and apprehend aliens who fail to leave; instead, they become fugitives who
may continue to live and work illegally in the United States.
Although INS has primary responsibility for enforcing immigration judges' orders,
immigration judges could play a more significant role in assisting with the enforcement of
voluntary departure orders. We found that immigration judges are not adequately using
their authority to assist INSs enforcement efforts. Voluntary departure bonds are
not fully utilized by immigration judges, and we found no evidence that immigration judges
attach any conditions other than bonds to voluntary departure orders. Attachment of other
conditions could increase the likelihood of an alien leaving the country when required.
We recommend that INS develop an enforcement plan, or revise its current plan, to
sufficiently address those aliens who have violated immigration judge-granted voluntary
departure orders in conjunction with developing a system to verify departures. We also
recommend that EOIR issue clarifying guidance that immigration judges set voluntary
departure bonds whenever possible to assist INS in enforcing voluntary departure orders.
Summary
Our report offers these recommendations to strengthen voluntary departure and address
the problems identified in this report. Our recommendations are addressed to INS and EOIR
because both have important roles in the successful implementation of voluntary departure
as an alternative form of removal.
We sent copies of the draft report to your offices on January 15, 1999, and requested
written comments on the findings and recommendations. As we did not receive a response
from INS, all four recommendations addressed to INS are unresolved. We will continue to
work with INS to elicit their comments and planned actions to address the recommendations.
EOIR provided written comments on March 10, 1999. We have attached EOIRs response
as Appendix E. On the basis of its comments, we consider two out of the four
recommendations unresolved. Appendix F provides a detailed analysis of EOIRs
response, including what additional actions are needed. Please respond by May 14, 1999,
clarifying agreement or disagreement with the report recommendations and providing us with
a plan of action. Guidance on report follow-up and resolution can be found in Department
of Justice Order 2900.10.
We appreciate the cooperation that your staff extended to us as we conducted our
review. If you have any suggestions of how we might improve our review process, or if we
can provide you with any additional information, please let us know.
Attachment
cc:    Kathleen Stanley
Liaison
Immigration and Naturalization Service
Peggy Philbin
Liaison
Executive Office for Immigration Review
Vickie L. Sloan
Director
Audit Liaison Office
#####